               The Process for Assigning Cases Should Be
               Strengthened to Provide Better Coverage to
                Indian Tribal Governments Most in Need of
                            Compliance Checks

                                 September 2004

                       Reference Number: 2004-10-191




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                        September 28, 2004


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                  Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Process for Assigning Cases Should Be
                             Strengthened to Provide Better Coverage to Indian Tribal
                             Governments Most in Need of Compliance Checks
                             (Audit # 200410011)


      This report presents the results of our review of the process for identifying and
      assigning compliance checks of Indian Tribal governments. The overall objective of this
      review was to determine whether the Indian Tribal Governments (ITG) office of the Tax
      Exempt and Government Entities (TE/GE) Division took appropriate actions to identify
      and assign compliance checks to ensure they are conducted in a fair, equitable, and
      consistent manner.
      The ITG office is responsible for administering Federal tax laws related to the
      564 Federally recognized Indian Tribal governments and their approximately
      2,000 related entities. The ITG office performs compliance checks to understand
      customer needs and to identify appropriate remedies for compliance issues.
      Compliance checks are an important part of the ITG office’s strategy to reduce the need
      for enforcement by keeping abreast of trends that are emerging among the tax filing and
      payment characteristics of tribal-related entities. The ITG office addresses areas with a
      high risk of noncompliance through outreach, education, or compliance activities.
      Compliance checks provide valuable information to ITG office management that is not
      obtained through other types of compliance activities.
      In summary, the process used by ITG office management to identify and assign entities
      in need of compliance checks relies on data analysis of various filing characteristics.
      Generally, this keeps ITG office group managers and specialists independent of the
      assignment process. It also provides a basis (based on the results of analysis of tax
      return and other information of a tribal entity) for the compliance check and allows the
                                           2

ITG office group manager to provide the Indian Tribal governments assurance that the
tribes are not being singled out for reasons other than those identified by the data
analyses. We determined that compliance checks were assigned based on the results
of the data analyses and workload needs according to the geographic locations or
experience level of field specialists.
However, the process did not provide a similar balance of compliance check coverage
across the geographical locations for which the ITG office field groups are responsible.
For example, 1 field group has contacted 34 percent of the tribes and another group has
contacted 80 percent of the tribes in their respective geographical locations. Because
the process did not provide similar compliance check coverage, ITG office management
may not fully achieve their goals of better understanding their customers and identifying
appropriate remedies to compliance issues.
We recommended the Director, ITG, TE/GE Division, provide guidance to ensure an
appropriate balance of work is requested to achieve the desired number of compliance
checks and coverage for assigned tribes, and gather appropriate data to establish cutoff
data scores to aid in determining when one formula used in the data analysis should
take priority over another.
Management’s Response: The Commissioner, TE/GE Division, agreed with our
recommendations and has started taking corrective actions. To ensure that tribes are
not underserviced and cases that should be worked are ordered, the ITG office has
added new management reports that enable the ITG Director to ascertain the workload
assignments of each group on an ongoing basis. The Director, ITG, will make directed
assignments of work if an imbalance between groups is apparent. Additionally, ITG
office management will be undertaking a detailed study to determine whether cutoff
scores can be identified and will contrast compliance check results from each formula to
determine where the optimal results are realized. Management’s complete response to
the draft report is included as Appendix IV.
Copies of this report are also being sent to the Internal Revenue Service managers
affected by the report recommendations. Please contact me at (202) 622-6510 if you
have questions or Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters
Operations and Exempt Organizations Programs), at (202) 622-8500.
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks




                                                  Table of Contents


Background ............................................................................................... Page 1
Compliance Checks Were Assigned Based on Data Analyses
but Resulted in Inconsistent Geographical Coverage ............................... Page 3
         Recommendation 1: .......................................................................Page 10
         Recommendation 2: .......................................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Management’s Response to the Draft Report .................... Page 16
 The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
            Indian Tribal Governments Most in Need of Compliance Checks

                                 The Internal Revenue Service’s (IRS) Indian Tribal
Background
                                 Governments (ITG) office was established in Fiscal Year
                                 (FY) 2000 within the Government Entities function of the
                                 Tax Exempt and Government Entities Division. The ITG
                                 office is responsible for administering Federal tax laws
                                 related to the 564 Federally recognized Indian Tribal
                                 governments and their approximately 2,000 related
                                 entities.1 Generally, Federally recognized Indian Tribal
                                 governments are not subject to Federal income tax.
                                 However, tribal-related entities are responsible for various
                                 income, employment, and excise taxes; and antimoney
                                 laundering and information reporting requirements.
                                 In FY 2001, the ITG office began performing compliance
                                 checks2 to understand customer needs and to identify
                                 appropriate remedies for compliance issues. Initially, tribal
                                 governments were assigned for compliance checks because
                                 the ITG office had not identified all the tribal-related
                                 entities. However, because many of the tribes had a large
                                 number of tribal-related entities, these assignments became
                                 too cumbersome, and the ITG office redesigned the process
                                 to assign compliance checks to individual tribal-related
                                 entities (instead of the tribal government) in June 2003.
                                 During a compliance check, a field specialist interviews key
                                 personnel in the tribal entity and inquires about other related
                                 entities and filing requirements to determine whether all
                                 record keeping and information reporting requirements are
                                 met. If the ITG office field specialist determines that a tribe
                                 is not fully complying with its filing and payment
                                 responsibilities, the specialist may follow up with additional
                                 outreach or other action to assist the entity or propose an
                                 examination3 when warranted.


                                 1
                                   Tribal-related entities are businesses or enterprises owned and/or
                                 controlled by an Indian Tribal government. These entities include
                                 casinos, restaurants, medical clinics, housing authorities, gas stations,
                                 and a variety of other industries.
                                 2
                                   A compliance check is voluntary, and an entity may refuse to have a
                                 compliance check performed. It does not include an examination of
                                 books and records to determine an entity’s liability for taxes.
                                 3
                                   An examination is a review of an entity’s books and records to
                                 determine the correct tax liability.


                                                                                                    Page 1
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                Compliance checks are an important part of the ITG office’s
                                strategy to reduce the need for enforcement by keeping
                                abreast of trends that are emerging among the tax filing and
                                payment characteristics of tribal-related entities. The ITG
                                office addresses areas with a high risk of noncompliance
                                through outreach, education, or compliance activities.
                                Compliance checks provide valuable information to ITG
                                office management that is not obtained through other types
                                of compliance activities. Generally, information from the
                                results of the compliance checks, such as new tribal-related
                                entities or filing requirements, is input into the ITG office’s
                                database4 for future analysis.
                                ITG office compliance check workload is generally
                                identified through one of three methods:
                                •   The primary method used to identify compliance checks
                                    is a process developed by the Outreach, Planning, and
                                    Review (OPR) office5 for analyzing employment tax and
                                    information reporting returns and commercial census
                                    data related to the tribes or tribal entities. For analyses
                                    performed in FY 2003, six preset formulas and other
                                    criteria6 were used to rank and assign tribal-related
                                    entities for compliance work based on the results of data
                                    analyses of tax return and other information of the tribal
                                    entity.7
                                •   Indian Tribal government leadership may request a
                                    compliance check. Tribes often request compliance
                                    checks when there is a need for specialized guidance

                                4
                                  The ITG office database was developed by the Outreach, Planning, and
                                Review office in FY 2001 to analyze filing and payment characteristics
                                and control nonexamination activities.
                                5
                                  The OPR office’s responsibilities include strategic planning,
                                coordination of ITG office activities, review of work assignments, and
                                workload classification and delivery.
                                6
                                  These formulas and criteria are defined in the OPR office’s FY 2003
                                Workload Selection Plan and are designed to identify workload based on
                                the annual ITG Workplan data analysis. The ITG Workplan is based on
                                market segments that were identified during the data analysis to be areas
                                in need of assistance in complying with the Internal Revenue Code.
                                7
                                  Inventory received from the OPR office may consist of any type of
                                compliance work, including compliance checks, tip compliance reviews,
                                and examinations.


                                                                                                 Page 2
   The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
              Indian Tribal Governments Most in Need of Compliance Checks

                                       from the ITG office and when there is a change in
                                       leadership or key personnel in the tribe.
                                   •   An ITG office field group8 may initiate a compliance
                                       check when it identifies a need for one based on the
                                       manager’s or a field specialist’s knowledge of the tribe.
                                       The approval of the Director, ITG, is required only when
                                       certain time and cost thresholds will be exceeded.
                                   For this audit, we concentrated our analysis on the primary
                                   method used by the OPR office to identify compliance
                                   check workload.
                                   This review was performed at the ITG office National
                                   Headquarters in Washington, D.C., the ITG OPR office in
                                   Buffalo, New York, and the ITG field offices in
                                   Buffalo, New York; Fargo, North Dakota;
                                   Las Vegas, Nevada; Santa Ana, California; and
                                   San Bernadino, California, during the period January
                                   through June 2004. This audit was conducted in accordance
                                   with Government Auditing Standards. We reviewed the
                                   ITG office’s computer data for compliance checks as of
                                   May 31, 2004, after learning of the redesign of the system of
                                   analysis that was effective in June 2003. We did not
                                   validate the accuracy or completeness of the ITG office’s
                                   data for the redesigned analysis. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The process used by ITG office management to identify and
Compliance Checks Were
                                   assign entities in need of compliance checks relies on data
Assigned Based on Data Analyses
                                   analysis of various filing characteristics. Generally, this
but Resulted in Inconsistent
                                   keeps ITG office group managers and specialists
Geographical Coverage
                                   independent of the assignment process. It also provides a
                                   basis9 (based on the results of analyses of tax return and
                                   other information of a tribal entity) for the compliance

                                   8
                                     ITG office field groups are composed of a manager and field
                                   specialists who interact with tribes to perform outreach, education, and
                                   examination activities.
                                   9
                                     The basis could be the result of analysis of tax return and other
                                   information that falls outside of a normal predetermined range for an
                                   entity or an entity that did not file a tax return and should have.


                                                                                                    Page 3
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                check and allows the ITG office group manager to provide
                                the Indian Tribal governments assurance that the tribes are
                                not being singled out for reasons other than those identified
                                by the data analyses. We determined that compliance
                                checks were assigned based on the results of the data
                                analyses and workload needs according to the geographic
                                locations or experience level of field specialists.
                                However, the process did not provide a similar balance of
                                compliance check coverage across the geographical
                                locations for which the ITG office field groups are
                                responsible. For example, 1 field group has contacted
                                34 percent of the tribes and another group has contacted
                                80 percent of the tribes in their respective geographical
                                locations. Because the process did not provide similar
                                compliance check coverage, ITG office management may
                                not fully achieve their goals of better understanding their
                                customers and identifying appropriate remedies to
                                compliance issues.
                                Compliance check assignments did not provide a similar
                                balance of coverage among the five field groups
                                ITG office management’s process for assigning compliance
                                checks did not provide a similar balance of coverage among
                                the Indian Tribal governments in the five ITG office field
                                areas.10 As a result, compliance check coverage among all
                                Indian Tribal governments varied significantly among the
                                five ITG field offices. Therefore, ITG office management
                                may not be identifying the overall emerging trends and
                                compliance issues throughout the population of Indian
                                Tribal governments.
                                We reviewed all 724 compliance check assignments
                                recorded in the ITG office database from its inception
                                through May 31, 2004, to determine if there was a similar
                                distribution among the population of Federally recognized
                                Indian tribes. We determined that significantly fewer tribes
                                in one field area had compliance checks assigned to their
                                related entities. We discussed the inconsistent geographical

                                10
                                  A field area is a geographical territory, including two or more states,
                                assigned to each ITG office field group. Generally, a field group will be
                                responsible for serving the tribes located within its field area.


                                                                                                 Page 4
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                distribution of compliance checks with ITG office
                                management, and they stated that their data-driven
                                assignment process is not intended to ensure similar
                                coverage of the Federally recognized tribes. However, they
                                acknowledged that some tribes had expressed that they were
                                not getting the same attention that other tribes were.
                                Figure 1 shows the percentage of Federally recognized
                                Indian tribes within each ITG office field group’s area for
                                which a compliance check of at least one tribal-related
                                entity was conducted.11
                                                                  Figure 1

                                               Distribution of Compliance Checks



                                                  80%
                                                  70%
                                     Percentage 60%
                                     of Federally 50%
                                                  40%                         % of Tribes That
                                     Recognized 30%
                                                                              Have Had a
                                        Tribes    20%
                                                  10%                         Compliance Check
                                                   0%
                                                        A    B C D E
                                                            Field Group




                                Source: The ITG office database tables were used to identify the
                                percentage of Federally recognized tribes that have had a compliance
                                check completed by the field groups (Groups A through E) responsible
                                for the geographical areas in which the tribes are located.

                                Although the OPR office analysis is the primary method
                                used to identify work for the field groups, ITG office
                                procedures and guidelines also permit the field area groups
                                to initiate work that focuses on specific needs or trends
                                discovered through personal contact, news media, or
                                database analysis.

                                11
                                  Tribes with compliance checks of more than one tribal-related entity
                                conducted were counted only once. One tribe had compliance checks of
                                24 entities conducted; however, most tribes had a compliance check of
                                only 1 entity conducted.


                                                                                              Page 5
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                •   Four group managers (Groups B, C, D, and E) relied on
                                    the OPR office analyst to select the type of workload
                                    assigned to their groups. This resulted in a significant
                                    percentage of compliance checks being assigned for
                                    tribes for which the groups were responsible (ranging
                                    from 52 to 80 percent of the tribes).
                                •   The remaining group manager (Group A) primarily
                                    requested issue-specific cases and, therefore, has been
                                    assigned compliance checks for only 34 percent of the
                                    tribes in the group’s geographical area. According to
                                    this manager, gaming issues (e.g., cash transaction
                                    reporting, employment taxes, and information reporting)
                                    are a higher priority because approximately one-half of
                                    the Indian tribal casinos in the United States are located
                                    in the group’s field area. The manager stated that many
                                    of these tribes are very sophisticated, and the group
                                    manager preferred to make initial contact through
                                    outreach activities, rather than through compliance
                                    checks. Additionally, the tribal-related entities and other
                                    IRS business division employees often contact this
                                    group’s specialists to resolve collection issues. As a
                                    result, most of this group’s inventory consisted of
                                    outreach and tip compliance reviews.
                                When the ITG office was initially formed, outreach and
                                education activities were the main focus of the ITG office as
                                a means of introducing its services to customers. However,
                                the ITG office now uses compliance checks to identify areas
                                in which its customers may be having problems complying
                                with the Internal Revenue Code (I.R.C.) and then performs
                                outreach and education activities to correct the problems.
                                The Group A field group manager still prefers to perform
                                outreach and education during the initial visit to a tribe.
                                Although the identification process uses tax filing data to
                                objectively rank tribal-related entities based on filing
                                characteristics, actual assignment of compliance checks is
                                often based on workload needs according to the geographic
                                locations or experience level of field specialists in addition
                                to overall filing characteristics among the population of
                                tribal-related entities. For example, some group managers
                                requested work for specific states or tribes to obtain work
                                for field specialists in those locations. One group manager
                                                                                        Page 6
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                tended to request a type of work other than compliance
                                checks. Although these factors had merit when considered
                                individually for each case, when combined on a nationwide
                                basis, these factors allowed ITG office field groups to have
                                inconsistent compliance check coverage of the Indian Tribal
                                governments for which they are responsible.
                                Compliance checks were assigned based on the results of
                                the data analyses
                                The ITG office process for assigning compliance checks
                                assured that tribal entities most in need of a compliance
                                check were assigned first. For Tax Year 2001 returns, the
                                ITG office primarily used two of the six formulas (Formulas
                                A and B) to assign compliance checks. These two
                                formulas12 were used to select 232 of the 266 compliance
                                check assignments for the period July 2003 through
                                May 2004. We identified that, for Formulas A and B,
                                compliance checks were assigned based on the results of the
                                OPR office data analysis or some other predetermined
                                criteria.
                                The purpose of our analysis was to determine whether the
                                ITG office’s actions ensured compliance checks were
                                identified and assigned in a fair, equitable, and consistent
                                manner. Tribal-related entities displaying the characteristics
                                of needing a compliance check were given a lower data
                                score (e.g., 0.00 would represent the greatest need for a
                                compliance check), and the entities with less need for a
                                compliance check were given a higher data score
                                (e.g., 20.00 would generally represent much less of a need
                                for a compliance check).
                                •    Formula A was used by the ITG office to select 162 of
                                     the 266 compliance check assignments we reviewed. At
                                     the time of our review, the database contained a total



                                12
                                  We reviewed the 2 formulas used to select 232 of the 266 compliance
                                checks during the period of our review. These formulas are designed to
                                address noncompliance identified in the OPR office’s annual data
                                analysis. The remaining four formulas were not used as often and could
                                not be trended.


                                                                                              Page 7
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                     population of 1,80513 entities that met the criteria for a
                                     compliance check under Formula A.
                                     ¾ For the 162 entities assigned for compliance checks
                                       we reviewed, the data scores ranged from 0.00 to
                                       3.83. Most (132) of the 162 entities had a data score
                                       of 0.00, the highest possible.
                                     ¾ The data score for 790 of the 1,805 entities was 0.00
                                       (the total of 790 entities includes the 132 entities
                                       noted above). Some of the 790 entities (including
                                       the 132) were assigned for compliance checks or
                                       some other type of compliance work. However,
                                       362 entities with the highest data score (0.00) were
                                       available to be, but were not, assigned for
                                       compliance checks.




                                13
                                  All duplicate assignments and compliance checks involving I.R.C.
                                Section 501(c)(3) cases were eliminated from the population.




                                                                                              Page 8
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                                              Figure 2: Formula A
                                                                    Range of Data
                                                                      Scores of
                                                   Number of         Compliance
                                                    Entities           Checks         Entities With
                                                   Assigned to       Assigned by       a 0.00 Data
                                          Field
                                                   the Group           Group           Score That
                                          Group
                                                       for         High     Low         Were Not
                                                   Compliance      Data     Data        Assigned
                                                     Checks        Score    Score

                                            A           14          0.00     0.06           64

                                            B           22          0.00     0.00          120
                                            C           21          0.00     0.00           78

                                            D           26          0.00    3.8314          73
                                                                                15
                                            E           79          0.00    3.33            27
                                         Totals:        162                                362
                                        Source: Treasury Inspector General for Tax Administration
                                        analysis of data from the ITG office database.

                                •    Formula B was used by the ITG office to select 70 of
                                     the 266 compliance check assignments we reviewed. At
                                     the time of our review, the database contained a total
                                     population of 939 entities that met the criteria for a
                                     compliance check under Formula B.
                                     ¾ For the 70 entities assigned for compliance checks
                                       we reviewed, the data scores ranged from 0.00 to
                                       7.15. The range of data scores assigned to each field
                                       group varied widely. For example, in 1 group, the
                                       data scores ranged from 0.00 to 3.82. In another,
                                       they ranged from 0.01 to 7.15. Although the 70
                                       compliance checks were generally assigned
                                       according to the data scores within each group, when
                                       considered nationwide, the assignment practices for
                                       Formula B did not meet the fairness goal for

                                14
                                  Group D had 2 compliance check cases with a score greater than 0.00.
                                15
                                  Group E had 27 compliance check cases with a score greater than
                                0.00. However, most of these assignments are from a market segment
                                that the OPR office has identified as needing compliance checks.


                                                                                              Page 9
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                       compliance checks. To achieve this goal,
                                       compliance checks should have been assigned within
                                       the same range of scores for each group.
                                   ¾ In addition, we determined that the ITG office
                                     database indicated 23 of the 939 entities had lower
                                     data scores (indicating greater need for a compliance
                                     check) than some of the 70 entities assigned to the
                                     field that we reviewed. Upon further review of
                                     manual files, ITG office management advised us that
                                     the 23 entities either had been previously assigned
                                     for a compliance check or there was a reason for not
                                     assigning them for a compliance check; however, the
                                     ITG office database did not contain a complete
                                     history on these entities to readily determine this.
                                In addition, the OPR has not determined the point at which
                                compliance patterns diminish for each formula and how to
                                compare the data scores of the various formulas to know
                                which data scores and which formulas should take priority.
                                Ensuring Indian Tribal governments and their related
                                entities comply with applicable tax laws and regulations is
                                crucial for maintaining public confidence and fairness in tax
                                administration. Lapses in compliance by ITG office
                                customers, including reporting payments such as wages and
                                gaming winnings and remitting and withholding Federal
                                taxes, affect compliance for other IRS customers. By not
                                assigning compliance checks on an equitable basis among
                                the Federally recognized tribes, the ITG office may not be
                                accurately identifying emerging filing and payment trends,
                                resolving the most significant universe of compliance
                                problems, or identifying appropriate remedies for emerging
                                trends to meet its goal of reducing the need for future
                                enforcement.

                                Recommendations

                                1. The Director, ITG, should provide guidance for field
                                   group managers to ensure an appropriate balance of
                                   work is requested to achieve the desired number of
                                   compliance checks and coverage for their assigned
                                   tribes.


                                                                                     Page 10
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                Management’s Response: To ensure that tribes are not
                                underserviced and cases that should be worked are ordered,
                                the ITG office has added new management reports that
                                enable the ITG Director to ascertain the workload
                                assignments of each group on an ongoing basis. The
                                Director, ITG, will make directed assignments of work if an
                                imbalance between groups is apparent.
                                2. The Director, ITG, should gather appropriate data to
                                   establish cutoff data scores for the different formulas
                                   used in the data analysis, to aid the OPR office analyst
                                   in determining when one formula should take priority
                                   over another.
                                Management’s Response: ITG office management will be
                                undertaking a detailed study to determine whether cutoff
                                scores can be identified and will contrast compliance check
                                results from each formula to determine where the optimal
                                results are realized.




                                                                                     Page 11
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Indian Tribal Governments
(ITG) office of the Tax Exempt and Government Entities Division has taken appropriate actions
to identify and assign compliance checks to ensure they are conducted in a fair, equitable, and
consistent manner. To accomplish this objective, we:
I.       Determined if ITG office management has developed an effective process to assess
         compliance patterns and to identify and prioritize the population of Indian Tribal
         governments1 for compliance checks.
         A. Interviewed the Director, ITG; the Outreach, Planning, and Review (OPR) office
            manager; and the five field group2 managers to identify their processes for assessing
            compliance patterns and identifying and prioritizing the population of tribal-related
            entities3 for compliance checks.
         B. Reviewed ITG office management’s work plans, data assessments, written
            procedures, and other guidance for assessing compliance patterns and identifying and
            prioritizing the population of Indian Tribal governments for compliance checks.
         C. Determined if ITG office management’s use of data analyses resulted in the
            identification and prioritization of compliance patterns for all Federally recognized
            Indian Tribal governments.
         D. Analyzed ITG office management’s use of data analyses to assess Indian Tribal
            governments’ need of assistance in complying with the Internal Revenue Code, and to
            identify and prioritize the population of Indian Tribal governments for compliance
            checks. We reviewed the 266 compliance check assignments made for the period
            July 20034 through May 2004 for Tax Year 2001 returns.


1
  There are currently 564 Indian Tribal governments that are Federally recognized by the United States Bureau of
Indian Affairs.
2
  Field groups are composed of a manager and field specialists who interact with tribes to perform outreach,
education, and examination activities.
3
  Tribal-related entities are businesses or enterprises owned and/or controlled by an Indian Tribal Government.
These entities include casinos, restaurants, medical clinics, housing authorities, gas stations, and a variety of other
industries.
4
  The ITG office converted the compliance check assignment process from tribal governments to entities in
June 2003. We began the period of our analysis in July 2003, to avoid single tribal government assignments that
would be recorded in the database as multiple compliance checks of the tribal-related entities and to ensure the same
tax data were being used for computations.


                                                                                                              Page 12
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

             1. Identified the 6 formulas and other criteria used to select the 266 compliance
                check assignments and analyzed data used to assess and rank the compliance
                patterns for the 2 formulas used to select 232 of the 266 compliance checks.5
             2. Determined if the OPR office assigned compliance checks to the ITG office field
                groups based on its assessment of compliance patterns.
        E. Compared the results of interviews with ITG office management, review of
           procedures and other guidance, and the Treasury Inspector General for Tax
           Administration (TIGTA) review of ITG office management’s use of data analyses to
           determine if the assessment of compliance patterns was fair, equitable, and consistent.
II.     Determined if ITG office management has developed an effective process to assign
        compliance check workload to ensure fair, equitable, and consistent treatment of Indian
        Tribal governments.
        A. Interviewed the OPR office manager and the five field group managers and identified
           their processes for assigning compliance checks for Indian Tribal governments.
        B. Reviewed OPR office procedures and other guidance for assigning compliance check
           workload for Indian Tribal governments.
        C. Reviewed the field groups’ procedures and other guidance for assigning compliance
           checks for Indian Tribal governments.
        D. Analyzed the ITG office’s process for assigning compliance checks for Indian Tribal
           governments. We reviewed all 724 compliance check case assignments recorded in
           the ITG office’s database from its inception through May 31, 2004, and determined if
           there was a similar distribution among the population of Federally recognized Indian
           tribes.
        E. Compared the results of interviews with ITG office management, review of
           procedures and other guidance, and the TIGTA analysis of ITG office management’s
           assignment of workload to determine if the assignment process was fair, equitable,
           and consistent.




5
 For the remaining 34 compliance check assignments we reviewed, no formula or criteria were used to select 21;
other criteria were used to select 11; and the remaining 4 formulas were used to select 2 assignments.




                                                                                                        Page 13
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Gerald T. Hawkins, Audit Manager
Julia M. Collins, Lead Auditor
Deadra M. English, Senior Auditor
Andrew J. Burns, Auditor
Donald J. Martineau, Auditor




                                                                                      Page 14
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 15
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks

                                                                        Appendix IV


                   Management’s Response to the Draft Report




                                                                              Page 16
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to
           Indian Tribal Governments Most in Need of Compliance Checks




.


                                                                              Page 17
